      Department of Homeland Security





             Interim Report on FEMA Public 

           Assistance Grant Funds Awarded 

           to Los Angeles County, California 





DS-12-06                                         March 2012

                                                                     Office ofInspector General

                                                                     U.S. Department of Homeland Security
                                                                     Washington, DC 20528




                                                                     Homeland
                                                                     Security
                                                   MAR 1 4 2012




FROM:



SUBJECT:                        Interim Report on FEMA Public Assistance Grant Funds Awarded to
                                 Los Angeles County, California
                                FEMA Disaster Number 1577-DR-CA
                                Audit Report Number DS-12-06

We are currently auditing Federal Emergency Management Agency (FEMA) public assistance (PA)
grant funds awarded to Los Angeles County, California (County), Public Assistance Identification
Number 037-99037-00, for disaster recovery work related to storms, flooding, debris flows, and
mudslides during the period of December 27,2004, through January 11,2005. The purpose ofthis
memorandum is to advise you that at least $16.1 million of the total $54.9 in awarded funds are
unneeded and should immediately be deobligated and put to better use (see Exhibit, Schedule of
Unneeded Funding).

We are conducting this performance audit pursuant to the Inspector General Act of1978, as
amended, and according to generally accepted government auditing standards. Our audit objective is
to determine whether the County accounted for and expended FEMA PA grant funds according to
federal regulations and FEMA guidelines. We conducted this audit applying the statutes,
regulations, and FEMA policies and guidelines in effect at the time of the disaster. At the
conclusion of our audit, we plan to issue our complete audit report, including any additional findings
and recommendations.


                COMPLETED PROJECTS - UNNEEDED FEDERAL FUNDS

The County, after completing all ofthe 143 large projects as of May 2011, has $16,069,737 (federal
share $12,052,303) in unneeded funds from 79 projects for which final costs have been accounted
(see Exhibit). The majority ofthese projects were completed between 2005 and 2006, and federal
funding for these projects has not yet been deobligated. According to 44 CFR 206.205 (b)(1), the
grantee (the state) shall make an accounting to the FEMA Regional Administrator of eligible costs
for each large project" .. as soon as practicable after the subgrantee [the County] has completed the
approved work and requested payment.” Therefore, FEMA should immediately deobligate the
unneeded funding associated with these projects and put those federal funds to better use. 1

County and California Emergency Management Agency (Cal EMA) officials agreed that the large
projects we identified as having unneeded funds that could be put to better use have been completed.
Despite the fact that these projects were completed more than 5 years ago, both County and Cal
EMA officials disagreed that the funds should be deobligated at this time because the County has not
yet submitted a final claim for all large projects.

County officials believed that the unneeded funds could be used to cover cost overruns for their
other (in-process) large projects. We explained to them that federal rules prohibit such action, and
that funding for each large project must be accounted for separately from all other projects. We
clarified that funding for large projects is obligated based on estimated costs and funded on
documented actual costs. At project completion, Cal EMA, as Grantee, is responsible for ensuring
that all incurred costs are associated with the approved scope of work and for certifying that the
work has been completed in accordance with FEMA standards and policies. Cal EMA must then
submit documentation of project costs to FEMA for review and, in the case of unneeded funds for
completed projects, deobligation. 2

Cal EMA officials disagreed that the funds should be deobligated at this time on the basis that it
would not be cost-effective for Cal EMA. These officials told us that although they agree that the
projects we identified were completed—and that a significant amount of unneeded funding remains
obligated—they have chosen not to submit the necessary documentation to FEMA at this point
because they feel that there would be unnecessary financial, time-, and effort-related costs associated
with doing so. They told us that it is generally their practice, despite the considerable time that has
already elapsed, to wait until all projects have been completed before taking action. We told Cal
EMA officials that this practice is not consistent with federal rules. Cal EMA is paid an
administrative allowance to process the completed projects in a timely manner and in accordance
with federal criteria. 3 These criteria require that Cal EMA inform FEMA of favorable developments
that enable meeting time schedules and objectives sooner or at less cost than anticipated as soon as
this information is available. 4 Moreover, FEMA officials have noted that deobligating unneeded
funding from completed projects in a timely manner can improve FEMA’s overall management of a
disaster and make funding available for other disaster projects. 5


                                             RECOMMENDATION

We recommend that the Regional Administrator, FEMA Region IX, in coordination with Cal EMA,
deobligate $16,069,737 (federal share $12,052,303) from the 79 projects for which final costs have
been accounted and unneeded federal funds remain obligated, and put those funds to better use.



1
  Additional unneeded funding from the remaining applicable projects, for which final project cost accounting has not yet

occurred, may likewise be identified in our ongoing audit of the PA grant awarded to LA County for 1577-DR-CA.

2
  44 CFR 206.205(b)(1) and FEMA Public Assistance Guide (FEMA 322; October 1999), Pg. 83.

3
  FEMA’s Public Assistance Guide (FEMA 322; October 1999), Pgs. 41-43.

4
  44 CFR 13.40(a) and (d)(2).

5
  For example, please see DS-09-05.

                                                            2

              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP


We discussed the interim results of this audit with County officials during our audit and included
their comments in this report, as appropriate. We also provided a written summary of our finding
and recommendation in advance to FEMA on February 6, 2012, and Cal EMA, and supporting
documentation to County officials, on February 9, 2012. We discussed the finding and
recommendation at an exit conference with County and Cal EMA officials on February 14, 2012.
FEMA officials withheld comment until after we issue our final report.

Within 90 days of the date of this memorandum, please provide our office with a written response
that includes your 1) agreement or disagreement, 2) corrective action plan, and 3) target completion
date for the recommendation. Also, please include responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendation. Until your
response is received and evaluated, the recommendation will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of our
report to appropriate congressional committees with oversight and appropriation responsibility over
the Department of Homeland Security. We will post the report on our website for public
dissemination. Significant contributors to this report were Humberto Melara, Devin Polster, Ravi
Anand, and Montul Long.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Humberto Melara at (510) 637-1463.


cc:	   Audit Liaison, FEMA (Job Code G-12-010)
       Audit Liaison, FEMA Region IX
       Audit Liaison, DHS




                                                  3

                                                                   EXHIBIT

                Schedule of Unneeded Funding

                Los Angeles County, California

     Public Assistance Identification Number 037-99037-00

             FEMA Disaster Number 1577-DR-CA


           Project                        Project
Project                Project Costs                 Unneeded
           Award                        Completion
Number                   Incurred                    Funding
           Amount                           Date
 992         $72,791          $23,962    8/4/2006        $48,829
  993         61,219           37,234    8/4/2006         23,985
  994        450,360          157,313    8/4/2006        293,047
  995         83,430           73,148    8/4/2006         10,282
  997        112,316           45,655    8/4/2006         66,661
  998         61,220           36,732    8/4/2006         24,488
  999        255,528           90,588    8/4/2006        164,940
 1000        294,390          113,697    8/4/2006        180,693
 1001        203,526          162,802    8/4/2006         40,724
 1002         85,402           50,876    8/4/2006         34,526
 1023        201,781          137,169    8/4/2006         64,612
 1024        122,939          118,759    8/4/2006          4,180
 1025        124,422           81,734    8/4/2006         42,688
 1026        475,155          463,222    8/4/2006         11,933
 1028        206,609          134,448    8/4/2006         72,161
 1176        206,377           82,015    8/4/2006        124,362
 1179        159,086           75,978    8/4/2006         83,108
 1442         85,004           84,994     8/4/2005            10
 1494        369,376           52,595    6/30/2007       316,781
 1853        111,789          103,410     8/4/2006         8,379
 2269        104,473           74,447     8/4/2006        30,026
 2270        925,730          458,671     8/4/2006       467,059
 2274      1,242,180        1,079,046     8/4/2006       163,134
 2275      1,854,000        1,282,791     8/4/2006       571,209
 2878        390,556          196,317     8/4/2006       194,239
 2886        749,138          182,320    8/4/2005        566,818
 2887        727,261          379,970    8/4/2005        347,291
 2888        212,885          127,010    8/4/2005         85,875
 2889      1,123,707          264,081    2/4/2006        859,626
 2890      2,959,095          565,410    8/4/2005      2,393,685
 2891        254,779           60,472    8/4/2005        194,307
 2929        151,075          109,293    8/4/2005         41,782
 2934        230,392           41,531    2/4/2006        188,861
 2935        206,194          156,678    8/4/2005         49,516
 2936        262,198           23,336    2/4/2006        238,862
 2937        434,464          164,832    8/4/2005        269,632

                              4

  2938      249,537       162,774   8/4/2005         86,763
  2939      310,858       140,043   8/4/2005        170,815
  2942    2,247,414       168,236   8/4/2005      2,079,178
  2944      269,690       101,899   8/4/2005        167,791
  2945      112,371        34,524   8/4/2006         77,847
  2947      200,497       172,910   8/4/2006         27,587
  2966       66,698        52,513   8/4/2006         14,185
  2967       94,442        17,728   8/4/2006         76,714
  2975      198,257       152,619   8/4/2006         45,638
  2983      184,372        93,083   8/4/2006         91,289
  2986       56,087        26,425   8/4/2006         29,662
  2991       79,087        68,803   8/4/2006         10,284
  2996    2,032,403       735,570   8/4/2006      1,296,833
  2999       58,336        24,363   8/4/2006         33,973
  3007      142,192        68,207   8/4/2006         73,985
  3010       61,906        59,366   8/4/2005          2,540
  3013       80,980        75,882   8/4/2006          5,098
  3015      126,785        68,571    8/4/2006        58,214
  3026      580,835       258,807    8/4/2006       322,028
  3030      252,454        86,663    8/4/2006       165,791
  3036       96,930        58,561    8/4/2006        38,369
  3040       57,009        32,758    8/4/2006        24,251
  3041      718,619       526,314    8/4/2006       192,305
  3045      650,849       281,797    8/4/2006       369,052
  3047       99,089        45,792    8/4/2006        53,297
  3052      234,829        76,077    8/4/2006       158,752
  3053       58,729        19,216    8/4/2006        39,513
  3062      242,614       144,385   8/4/2005         98,229
  3065      799,354       454,517   2/4/2006        344,837
  3066      603,021       284,745   2/4/2006        318,276
  3067      365,279        80,338   8/4/2006        284,941
  3069      249,203       166,093   8/4/2006         83,110
  3071      625,888       456,161   8/4/2006        169,727
  3072      115,305       104,176   8/4/2006         11,129
  3073       77,755        50,148   8/4/2006         27,607
  3077      203,282       121,352   8/4/2006         81,930
  3079       66,855        54,688   8/4/2006         12,167
  3082      107,627        68,834   8/4/2005         38,793
  3094      890,587       519,121   8/4/2006        371,466
  3100      133,725        79,339   8/4/2006         54,386
  3113      925,076       876,526   8/4/2006         48,550
  3119       75,508        33,945   9/30/2009        41,563
  3177      151,370        58,409    8/4/2006        92,961
TOTALS: $30,524,551   $14,454,814               $16,069,737



                          5

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
